No. _ _ _
ROBERT TIMOTHY HARLEY,
Petitioner,
v.

THE ATTORNEY GENERAL OF THE UNITED
STATES AND THE DIRECTOR OF THE BUREAU
OF ALCOHOL, TOBACCO, FIREARMS,
AND EXPLOSIVES,
Respondents.

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS
I, Richard Markell, hereby certify that the above referenced Petition for Writ of
Certiorari, as indicated by the word count feature of MS Word, and including
footnotes but excluding those parts enumerated for exclusion under the rules,
contains 6,300 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 22nd day of July, 2021.

Richard Markell
Lantagne Legal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

and belief.

